           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



 THE SOCIAL SECURITY ADMINISTRATION’S
       IDENTIFICATION OF SPECIAL
      DISABILITY WORKLOAD CASES

    January 2006    A-13-05-15028




   EVALUATION
     REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                            SOCIAL SECURITY
MEMORANDUM

Date:   January 24, 2006                                                           Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Identification of Special Disability Workload Cases
        (A-13-05-15028)


        OBJECTIVE
        Our objectives were to determine whether the Social Security Administration (SSA) had
        (1) identified and taken actions to implement system enhancements to prevent future
        Special Disability Workload (SDW) cases and (2) identified the universe of SDW cases.

        BACKGROUND

        SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) and
        Supplemental Security Income (SSI) programs under Titles II and XVI of the Social
        Security Act. The SSI program provides payments to individuals who have limited
        income and resources and who are either age 65 or older, blind or disabled.1, 2 The
        OASDI program provides benefits to qualified retired and disabled workers and their
        dependents as well as to survivors of insured workers.3

        Based on Section 1611(e)(2) of the Social Security Act, SSI recipients who have been
        identified as eligible for OASDI benefits are required to file for those benefits. When
        SSA identifies an SSI recipient who may be eligible for OASDI benefits, SSA notifies the
        individual of his or her eligibility and the requirement to file for OASDI benefits.




        1
         To be eligible for SSI payments, the individual must also (1) be a U.S. resident; (2) be a U.S. citizen or
        an eligible noncitizen; and (3) meet certain income and resource limits.
        2
         Section 1601, et seq. of the Social Security Act, as amended (42 U.S.C. § 1381, et seq.). See also
        20 CFR 416.110.
        3
            Social Security Act § 201 et seq., 42 U.S.C. § 402 et seq.
Page 2 - The Commissioner


Studies SSA conducted in July 1999 identified approximately 130,000 SSI recipients
who appeared, based on their earnings, to be insured4 for benefits under the OASDI
program. However, at that time, the SSI recipients were not receiving OASDI benefits.
Subsequent studies in 2002 identified additional SSI recipients who appeared to be
eligible for OASDI benefits but were not receiving them. While some of the individuals
identified in July 1999 had claims dating back to 1973, SSA estimated the SSI recipients
who were determined to be eligible for OASDI benefits had been eligible for an average
of about 8 years. As of November 2004, there were approximately 466,000 cases of
SSI recipients identified as possibly being insured for benefits under the OASDI
program (see Appendix C). The Agency categorized these individuals as SDW cases.

In each of SSA’s 10 regions, specialized cadres of technical experts worked with field
offices, Federal/State Disability Determination Services, program service centers and
SSA’s Office of Central Operations to review and assess some of the SDW cases (see
Appendix D). The Agency advised us 127,287 cases were completed through
September 2005. The Agency reported that, as of November 23, 2005, the cadres had
completed 87,897 cases. We did not verify these totals.

RESULTS OF REVIEW

While SSA has undertaken several studies to identify all SSI recipients who appear to
be insured for OASDI benefits, it has identified additional groups of cases with potential
OASDI entitlement not included in the universe of SDW cases. Further, the Agency has
implemented system enhancements to assist with processing SDW claimant cases.
However, failure to identify potential OASDI eligibility factors and programming
weaknesses limited the Agency’s ability to identify SSI recipients who may have been
eligible for OASDI benefits.

SSA HAS TAKEN ACTIONS TO IDENTIFY SDW CASES
SSA has taken actions to identify SSI recipients who appear to be insured for OASDI
benefits based on their own earnings but not receiving such benefits.

                      In July 1999, the Agency identified approximately 130,000 SSI
    Identification of
                      recipients who, based on their earnings, appeared to be insured
    SDW Cases
                      for, but were not receiving, OASDI benefits. In February 2003,
SSA organized a workgroup comprised of various program and information systems
technical experts. The workgroup quantified the potential impact of SDW on the
Agency’s programs and operations. Led by the Agency’s Office of Operations, the
workgroup used SSA’s information systems to identify SDW cases, determined the



4
  SSA, Program Operations Manual System (POMS), RS 00301.101, states insured status is the earnings
requirement a numberholder must meet to establish entitlement to any type of benefit or a period of
disability based on his or her earnings record. To meet insured status, the numberholder must have the
required number of earnings credits, called quarters of coverage, on his or her earnings record.
Page 3 - The Commissioner


need to clarify the Agency’s SSI policies, and developed SDW case selection criteria
(see Appendix C).
The workgroup provided the Office of Systems the SDW case selection criteria. Using
these criteria, the Office of Systems modified the Agency’s information systems to
identify potential SDW cases. As potential SDW cases were detected, SSA’s systems
annotated Quarter of Coverage indicators (codes) on SSI recipients’ Supplemental
Security Records (SSR). The Quarter of Coverage codes indicated potential OASDI
insured status. As of April 2004, the Agency had applied several case selection criteria.
In Fiscal Year 2005, the Agency had plans to apply additional case selection criteria to
identify more SDW cases. On average, each SDW case selection criteria application
takes about 6 months to develop, apply, and validate.

As a result of these efforts, the Agency identified claimants who were added to the list of
SDW cases. The workload grew from about 130,000 cases to nearly 466,000 cases (an
increase of about 350 percent). In addition, SSA identified cost estimates of this
workload’s impact on Agency operations and programs.5

We were unable to recreate the actions the Agency took to identify the population of
SDW cases because some of the program source codes were not available. SSA
management explained the source codes were developed in a decentralized manner,
and not all codes were retained. Additionally, the population of SSRs had changed
since the original SDW cases were identified. Therefore, we were unable to
independently determine whether the approximately 466,000 SDW cases (as of
November 2004) represented the total number of SSI recipients who appeared to be
insured for OASDI benefits.

The Agency has defined the SDW workload as a discrete group of cases with SSI
entitlement based on applications before January 1, 2000 and with apparent sufficient
earnings established on the individual’s own earnings record for OASDI entitlement but
for which entitlement has not been established.

In July 2005, SSA informed us that there were some additional categories of cases
involving potential entitlement to OASDI benefits. However, these cases did not meet
the Agency’s definition of SDW. As such, the Agency had not included these additional
categories in the universe of SDW cases. SSA stated it had activities in place to identify
and review such cases. When SSA reviews these additional categories, some of these
cases may be entitled to OASDI benefits.




5
  During a March 4, 2003 hearing before the House of Representatives’ Committee on Appropriations,
Subcommittee on Labor, Health and Human Services, Education, and Related Agencies, the
Commissioner of Social Security stated $142 million of the Agency’s Fiscal Year 2004 budget was
allocated to process SDW cases. The actual programmatic costs associated with SDW are reported in
the Agency’s annual Performance and Accountability Report.
Page 4 - The Commissioner


SSA LEVERAGED TECHNOLOGY TO ASSIST IN PROCESSING
SDW CASES
To assist field office staff in making accurate determinations6 for SDW cases, SSA
developed new software and tools and used existing systems. These enhancements
assist in processing initial SSI disability claims. SSA also updated its disability case
processing polices and procedures to provide direction for handling SDW cases.

Agency management stated that many of the disability claims it processes involve
complicated issues. For example, disability claims can involve a claimant’s insured
status, work issues, prior filings of disability claims, and benefit entitlement dates.

These issues are also found in SDW claimant cases. The Agency reports SDW cases
are complex because of the significant amount of time that may have elapsed from the
date of the initial filing of the disability claim until the date the Agency made a decision
about the SSI recipients’ eligibility for OASDI benefits.

    System             SSA modified and used existing systems to process SDW
    Enhancements for   claimant cases. These systems assist SSA employees in making
    Processing SDW     accurate determinations concerning the insured status, work
    Claimant Cases     issues, prior filings, and entitlement dates for disability claims,
                       including SDW cases. Specifically, the Agency used the
Disability Insured Status Calculator Online,7 Disability Wizard,8 and Modernized Return
to Work Program9 software.

Additionally, system enhancements were developed to provide ready access to SSA’s
Master Earnings File. This access allows SSA staff to make an informal determination
of insured status for disability claims. Moreover, the SSI diary system10 was enhanced




6
 SSA Handbook § 2189 states an initial determination is the first decision made on an application, post-
eligibility event, or a periodic redetermination of eligibility. An initial determination generally involves
eligibility for, or the amount of, SSI payments.
7
  The Disability Insured Status Calculator Online, also known as DISCO, is used to determine disability
insured status for entitlement to OASDI benefits.
8
 The Disability Wizard, also known as DIBwiz, is a software application developed to assist SSA
employees in making complex decisions about insured status.
9
 The Modernized Return to Work Program, also known as MRTW, is a Microsoft Access database
program designed to assist with “post-entitlement work continuing disability reviews.”
10
   SSA, POMS, SM 01301.200, states the diary system is designed to ensure individuals’ records are
current and accurate. Diaries are established as a result of field office input, internal and external
interfaces, or systems runs. They are used to note that further action is needed.
Page 5 - The Commissioner


to ensure alerts are issued when SSI recipients have earnings. SSA management
stated that many of the cases identified as SDW cases are complex and require careful
screening and diligent review. As a result, the Agency updated its disability claim
processing policies and procedures. For example, the Agency revised its automated
SDW Processing Guide. This Guide includes instructions for processing SDW cases,
such as steps personnel should follow to conduct a pre-interview screening.
Additionally, in April 2002, the Agency implemented SDW refresher training.

Also, to assist in managing SDW cases, SSA created an SDW website. The website
contains claimant case control management information and SDW reference materials.
For example, information is provided on the website on using SSI disability decisions to
establish entitlement for OASDI benefits. Additionally, SSA staff stated the SDW
website automatically interfaces with the “800 number system” and the Modernized
Claim System, which produces an alert that SDW development needs to be completed.
Also, the website tracks the status of SDW cases. SSA personnel can access and
update information on the website.

SSA HAD NOT FULLY MODIFIED ITS SYSTEMS TO PREVENT FUTURE
SDW CASES
Office of Management and Budget Circular A-123, Management Accountability and
Control, states agencies must take systematic and proactive measures to develop and
implement appropriate, cost-effective management controls. Management controls
(internal controls) are policies and procedures used to reasonably ensure reliable and
timely information is obtained, maintained, reported and used for decisionmaking. In
addition, management controls are policies and procedures used to reasonably ensure
programs achieve their intended results.

 Diary Did Not        Failure to identify certain OASDI eligibility factors and
 Identify Certain     programming weaknesses limited the effectiveness of the
 OASDI Eligibility    systems11 that alert field offices an SSI recipient may be
 Factors and Had      potentially eligible for OASDI benefits. To help Agency personnel
 Programming          identify these individuals, SSA’s systems are programmed to
 Weaknesses           annotate a KZ diary on the SSR. The presence of a KZ diary on
                      the SSR is notification to SSA staff of a need to determine
whether the SSI recipient is eligible for OASDI benefits.

Despite the number of SDW cases SSA identified, Agency management stated the
systems that result in the annotation of a KZ diary on the SSR were working as they




11
  There are several systems involved in the annual process which identifies SSI recipients who are
potentially insured for OASDI benefits. These systems include the annual Quarters of Coverage
selection, the Informational/Certified Earnings Records System, and the monthly redetermination
process.
Page 6 - The Commissioner


were initially programmed. However, SSA acknowledged the systems were not
designed to identify certain potential OASDI eligibility factors and had programming
weaknesses. In 2002, the Office of Quality Assurance and Performance Assessment
(OQA) reported the “. . . system did not select a case if it showed no current earnings on
the SSR…” or “…auxiliary/survivor title II beneficiaries.…” Further, OQA indicated
“…the software does not select records showing pending action on a title II claim, and
continues to generate false alerts.…”

In addition, Agency regional staff reported SDW “…has shown that the KZ diary process
failed to identify many SSI recipients who were insured.” In the April 2004 Special
Disability Workload Processing Guide, SSA reported (1) the “redetermination merge run
selections”12 that occur every September failed to set KZ diary alerts to warn field office
personnel of an SSI recipient’s insured status, and (2) subsequent earnings resulting in
insured status did not generate the KZ diary. Also, during the redetermination process,
field office personnel did not routinely assess OASDI insured status even though SSI
recipients had earnings on their Master Earnings Files.

To ensure SSA identifies categories of potential entitlement cases, appropriate steps
need to be taken to identify SSI recipients who appear to be potentially insured for
OASDI benefits. SSA management stated the Agency plans to improve the systems
that alert field offices that a recipient is potentially insured for OASDI benefits by
proposing additional system enhancements for processing disability claims. These
proposals have been submitted to the Agency’s Information Technology Advisory Board
for review and approval. According to the Board’s Plan for FYs 2005 through 2006,
system enhancements will be made to the SSI process to help prevent future potential
entitlement cases. As of March 2004, the Agency reported its processing of SDW
cases was not expected to be completed until 2010.




12
  In the 2004 Annual Report of the SSI Program, SSA states redeterminations are reviews of the non-
medical factors of eligibility to determine whether a recipient remains eligible for SSI payments and
continues to receive the correct payment amount.
Page 7 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
While SSA has taken actions to identify SSI recipients who appeared to be insured for
OASDI benefit payments, it has identified additional groups of cases with potential
OASDI entitlement not included in the universe of SDW cases. Further, the Agency has
implemented system enhancements to assist with the processing of SDW cases.
However, failure to identify potential OASDI eligibility factors and programming
weaknesses limited the effectiveness of SSA’s systems designed to identify SSI
recipients who may potentially be eligible for OASDI benefits. To prevent future
potential entitlement cases, SSA must continue to take actions to identify SSI recipients
who appear likely to be insured for OASDI benefits.

We recommend SSA:

1. Ensure enhancements to systems that identify SSI recipients who may potentially be
   eligible for OASDI benefits are made a top priority and implemented timely.

2. Continue to process SDW cases, and pay OASDI benefits for those SDW cases
   determined to be eligible for benefit payments.

AGENCY COMMENTS
The Agency agreed with our recommendations. The full text of the Agency’s comments
is included in Appendix E.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Universe of Special Disability Workload Cases as of November 2004
APPENDIX D – Processing the Special Disability Workload
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
OQA      Office of Quality Assurance and Performance Assessment
POMS     Program Operations Manual System
QCI      Quarters of Coverage Indicator
SDW      Special Disability Workload
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                                    Appendix B

Scope and Methodology
To accomplish our objectives, we:

•      Reviewed the applicable sections of the Social Security Act1 and the Social Security
       Administration’s (SSA) Special Disability Workload (SDW) National Website.2

•      Interviewed SSA personnel to obtain an understanding of the policies and
       procedures for identifying SDW cases.

•      Obtained from SSA’s National Database a listing of all SDW cases posted to the
       National Website as of September 2004.

The entities reviewed were the Office of Quality Assurance and Performance
Assessment under the Deputy Commissioner for Finance, Assessment and
Management; the Offices of Public Service and Operations Support, and Automation
Support under the Deputy Commissioner for Operations; and the Office of Disability and
Supplemental Security Income Systems under the Deputy Commissioner for Systems.
We performed our review from August 2004 through November 2005 in Baltimore,
Maryland. We conducted our review in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.




1
 Section 201 et seq., (42 U.S.C. § et seq.), Section 1611 (e)(2) and Section 1601, et seq. of the Social
Security Act, as amended (42 U.S.C. § 1381, et seq.).
2
    http://phapps.ph.ssa.gov/specdib2/specdibgreet.asp
                                                                                   Appendix C

Universe of Special Disability Workload Cases
as of November 2004
Based on various Old-Age, Survivors and Disability Insurance (OASDI) eligibility
requirements, a listing of Special Disability Workload (SDW) cases was identified and
posted to the Agency’s website. The Office of Systems annotated a special Quarters of
Coverage Indicator (QCI) code on selected Supplemental Security Records. The Office
of Systems reported the following.

     QCI                                                                 Potential     Date of System
    Codes                          Description                          SDW Cases            Run
      Z     Original workload of SDW cases identified in July 1999.      130,460          July 1999
            Supplemental Security Income (SSI)
     H      applicants/recipients who are receiving auxiliary or
            survivor OASDI benefit payments and are potentially           14,634        August 2002
            entitled to higher OASDI benefits.
            SSI applicants/recipients potentially insured with higher
     D      OASDI benefits.                                               59,284      September 2002
            Cases with processing limitations in the normal insured
     P      status screening process.                                     16,074        October 2002
            SSI recipients entitled to reduced retirement insurance
     M      benefit payments but appear to be eligible for non-           12,932          April 2004
            reduced disability insurance benefits.
            Individuals who once received SSI payments but
     T1     whose SSI records are likely in a terminated status.         188,280       See footnote 1
               Subtotal                                                  421,664

             Additional cases with Special QCI Codes Identified (Not Listed on Website)

            SDW cases identified in January 2002 KZ diary clean
KZ Diary    up run.                                                       43,537        January 2002
            SSI applicants insured for retirement insurance benefit
     A      payments.                                                        493      September 2002
               Total                                                     465,694




1
  In 2002, the Office of Quality Assurance and Performance Assessment identified this category as
terminated cases. However, the Office of Systems has not generated a system “run” for this category.
The Office of Quality Assurance and Performance Assessment stated that the estimated time frame to
process these cases is Fiscal Year 2009.
                                                                                   Appendix D

Processing the Special Disability Workload
Specialized cadres of technical experts in each region work with field offices,
Federal/State Disability Determination Services, program service centers and the Office
of Central Operations to process Special Disability Workload (SDW) cases. These
cadres review records for each affected Supplemental Security Income (SSI) recipient
to determine when the person first became eligible for Old-Age, Survivors and Disability
Insurance (OASDI) benefits. These experts calculate the amount of benefit payments
individuals should have received and the amount of SSI payments these individuals
should not have received.

To accomplish this task, technical experts work with other Agency components to

    1. screen the case to ensure the individual is insured and meets the criteria for SDW,
    2. map the case for field office jurisdiction,
    3. interview the claimant,
    4. develop the case,
    5. conduct pre-Disability Determination Service effectuation reviews,1
    6. send cases to the Disability Determination Services,
    7. prepare awards and denials,
    8. conduct pre-payment reviews,
    9. adjudicate awards and denials, including SDW reconsiderations,2
    10. conduct payment effectuation,
    11. calculate the windfall offset,3 and
    12. effectuate the windfall offset.

The Social Security Administration reports the average length of time to process an
SDW case is approximately 10 months. As of March 2004, the Agency reported its
processing of SDW cases was not expected to be completed until 2010.




1
 Special Disability Workload Processing Guide, January 2005, defines pre-effectuation reviews as an
application taken and developed then submitted for a technical review. Should the case require a pre-
payment review, the same review is applied.
2
  SSA Handbook § 2004 states in SSI cases, reconsideration is a case review, an informal conference, a
formal conference, or a disability hearing.
3
 SSA Handbook § 2185 states that the windfall offset affects individuals and couples eligible for SSI. It
applies to people due both SSI and OASDI benefits. The windfall offset prevents a person from receiving
more benefits retroactively than would have been received if all benefits were paid in the months they
were due.
                  Appendix E

Agency Comments
E--1
E--2
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

   Brian Karpe, Audit Manager, General Management (410) 966-1029

Acknowledgments

In addition to those named above:

   Tracey Edwards, Senior Auditor

   Jim Penna, Auditor

   Kim Beauchamp, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-05-15028.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
